GR-70-98-019
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the
Massachusetts State Police
GR-70-98-019
 
September 11, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the Massachusetts State Police (State Police). The State Police was
awarded a total of $5,117,819 in COPS grants to hire 56 new sworn police officers and
redeploy 40.7 full-time-equivalent (FTE) sworn police officers to community policing. The
purpose of the additional officers is to enhance community policing efforts.
The State Police violated the following grant conditions. 


The number of state-funded sworn officers decreased from 2,352 in October of FY 1995
    (the baseline year for AHEAD grants) to 2,201 in October of FY 1997, a decrease of 151. In
    our judgment, the decline in the total number of sworn officers indicates that the State
    Police improperly supplanted local funds with COPS grant funds. Consequently, we question
    the total of reimbursements for the AHEAD grant of about $2.8 million and recommend that
    about $1.4 million in COPS AHEAD funds be put to a better use.


The State Police charged $398,392 in unallowable administrative, overtime, and vacation
    payback costs to the AHEAD grant. We would have questioned these unallowable costs had we
    not already questioned the total reimbursements for the AHEAD grant. 


The State Police did not develop a plan for the redeployment of 10.4 FTEs under the MORE
    95 grant; therefore, we question $121,528 in reimbursements received by the State Police
    and recommend that $100,525 be put to a better use. 


The State Police did not develop a plan for the redeployment of 30.3 FTEs under the MORE
    96 grant; therefore, we recommend that $695,766 be put to a better use. 

These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II. 
#####